                                   NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                     OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




There was no closeout written at the time this case was closed. The following information was
extracted fiom the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have committed other illegal acts. On
January 15, 1991, the subject agreed not to apply to NSF until October 1, 1991.

Accordingly this case is closed.
                                  NATIONAL SCIENCE FOUNDATION
                                           1 BOO G STREET. N.W.
                                          WASHINGTON. O.C. 20550
      %/-\R
     4   insf &
      J++-.- *..8%
         P +%
        OFFICE OF
   INSPECTORGENERAL




                      FORGERY AND FRAUDULENT USE O F NSF LETTERHEAD
                                  B
                       ( I n v e s t i g a t i v e Report   -   Case No.    90040016)


  Basis f o r I n v e s t i g a t i o n
             In F e b r u a r y 1990, t h e o f f i c e o f I n s p e c t o r G e n e r a l was
  i n f o r m e d t h a t l e t t e r s u s i n g N a t i o n a l s c i e n c e Foundation ( N S F )
  l e t t e r h e a d h a d p r o b a b l y been f r a u d u l e n t l y p r e p a r e d by
  to m i s r e p r e s e n t NSF b u s i n e s s .                        s e n t a l e t t e r , dated
  February 2 5 , 1990, t o                                                       Program D i r e c t o r ,
                                           NSF, in which h e a d m i t t e d t o producing two
  f a l s e l e t t e r s from NSF and f o r g i n g                                  I s s i g n a t u r e on
  those letters.              (See Attachment #I.)

            In a n i n i t i a l review of t h e documents, w e concluded t h a t by
  d u p l i c a t i n g t h e NsF l e t t e r h e a d and p r o d u c i n g t h e f a l s e l e t t e r s ,
                      may have v i o l a t e d f e l o n y s t a t u t e T i t l e 18, U . S . C . , sec.
  1017,          "Government        S e a l s W r o n g f u l l y Used and I n s t r u m e n t s
  Wrongfully S e a l e d ,         and misdemeanor s t a t u t e , T i t l e 1 8 , U.S.C.,
  sec. 7 1 2 , ''Misuse of Names, Words, Emblems o r I n s i g n i a . "                                In
  addition,                        may have v i o l a t e d feiony statute T i t l e 1 8 ,
  U.S.C.,         sec, 1001, " F a l s e statements, " by &:-r;diici:-..r; 2                       f~rging
  the f a l s e l e t t e r s .
         This o f f i c e , under t h e a u t h o r i t y of t h e I n s p e c t o r G e n e r a l
- A c t o f 1978, as amended, i n v e s t i g a t e d t h e s e p o s s i b l e v i o l a t i o n s .
  Method of I n v e s t i g a t i o n
            I n f o r m a t i o n and a d d i t i o n a l documents were developed t h r o u g h
  t e l e p h o n e i n t e r v i e w s w i t h w i t n e s s e s and o f f i c i a l s o f t h e
                    -                         - L     '
                                                                    A l l r e l e v a n t documents
  were t h o r o u g h l y reviewea.
   Background
                                                           i s a n a s s o c i a t e p r o f e s s o r i n the
   Department o f                                  a t the
                     A s p a r t of h i s d u t i e s ,               a      - was r e s p o n s i b l e f o r
   p r o c e s s i n g and s u b m i t t i n g p r o p o s a l s f o r d o c t o r a l d i s s e r t a t i o n
   r e s e a r c h g r a n t s t o NSF.         On J a n u a r y 1 2 , 1990,                        received
   a p r o p o s a l f o r a d o c t o r a l d i s s e r t a t i o n r e s e a r c h g r a n t from
                         and r e p o r t e d l y forwarded it t o NSF f o r c o n s i d e r a t i o n .
   N S F h a s n o r e c o r d of                       's p r o p o s a l .   When                      asked
   I                     about t h e s t a t u s of t h e p r o p o s a l ,                               told
                     t h a t he had been i n c o n t a c t w i t h NSF and t h a t NSF had
   l o s t t h e proposal.                 I n J a n u a r y 1990,                        asked t o see.
   documentation of                              ' s correspondence w i t h NSF i n reference
   t o h e r proposal.                I n February 1990,                             ! gave
   documents t h a t he claimed were h i s correspondence with NSF.

  E v i d e n t i a r y Findings
            W e determined from i n f o r m a t i o n developed through telephone
  i n t e r v i e w s , a s w e l l a s from reviews of documents, t h a t i n
  February 1990,                             produced two f r a u d u l e n t l e t t e r s using
  p h o t o c o p i e s of NSF l e t t e r h e a d from NSF's Division of Grants and
  C o n t r a c t s and forged t h e s e l e t t e r s by f a s h i o n i n g                        s
  signature.              Attachment # 2 c o n t a i n s c o p i e s of t h e s e forged
  letters.                          t h e n t r a n s f e r r e d t h e f r a u d u l e n t and forged
  letters t o              -  I   I    a graduate student a t the                             ,
                1                               The f o r g e d l e t t e r s w e r e p a r t of an
  a t t e m p t by                    LO c o n c e a l from
                                          I                                      t h a t he had l o s t
  h e r r e s e a r c h proposal, which h e had r e s p o n s i b i l i t y f o r submitting
  to N S F .                      I s a t t e m p t s a t d e c e p t i o n included n o t e s of
  n o n e x i s t e n t telephone c o n v e r s a t i o n s w i t h NSF o f f i c i a l s , t h e two
  forged l e t t e r s , and                       I s verbal explanation t o                        J
  a b o u t t h e l o s t proposal.           The purpose o f t h i s deception was t o
  make NSF r e s p o n s i b l e f o r t h e l o s t p r o p o s a l .
           S u s p e c t i n g t h a t t h e l e t t e r s were forged, on February 9 ,
  1990,                        s e n t c o p i e s of t h e s e l e t t e r s t o                          for
  verification. -                On February 1 6 , 1990,                                      responaed t o
                   s t a t i n g t h a t t h e l e t t e r s w e r e forged and t h e c o n t e n t s of
  t h e le5Eers were f r a u d u l e n t .                     (See Attachment # 3. )            Copies of
- t h e correspondence were
  f o r g e r i e s by
                                      -    ..,  s e n   t   t  o  o f f i c i a l s a t t h e
                                                                            was confronted about ~ n e-
                                                                   ., t h e p r e s e n t Chair of t h e
  Department of                                       I
                                                                                 -
                                       o r i g i n a l l y d e n i e d f o r g i n g t n e ~ e c t e r s , but
  later admitted t o                                      t h a t he had forged t h e l e t t e r s . On
  February 2 5 , 1990,                                       !   sent a letter to
  a d m i t t i n g t h e h e forged t h e two NSF letters.
    ,        On May 17, 1990, we referred this matter t o the U.S,
        Attorney's Office in '          for possible prosecution of the
        above-mentioned violations.    The U.S.   Attorney declined to
        prosecute because federal funding was not directly involved and
        because NSF has administrative actions that can be imposed for
        such violations.
               According   to         -
                                         and
                                          -   ,,
                                               other
                                              the     officials
                                                  University     of the
                                                             is handling
        this case as a medical problem, and                   is now in
        counseling that is supervised by the university.    In addition,
                  ! has temporarily been relieved of all duties except
        teaching.
             Accordina to                  and other officials at the
        University,   - .       has been suspected of other acts which
        raise questions about his integrity. In August 1989,
        was suspected of shoplifting at the university book store.
               has also been suspected of lying about lost and stolen
        manuscripts that were sent to him. Finally, in 1987,
        first denied, then later admitted that he had used the University
        telephone to make personal telephone calls to a female graduate
        student in        during the fall and winter of 1986.
             In addition, the interviews and documents in this case make
        it clear that in his February 25, 1990, letter,
.   L
        misrepresented and omitted certain facts and circumstances
        involving the forgeries.              stated that he communicated
        with the               Department staff about the lost proposal,
        but             told us that these communications did not occur.
        Although          . stated that he knew the University procedures
        for submitting proposals and had previously been involved in the
        submission process, he failed to give reasons for not following
        University procedures.
                         :laims that his actions resulted from emotional
        depression brought on by the suicide of his first wife in
        November 1986, and by continuing to live in the same house after
        the marriage to his second wife in June of 1987. In his letter,
                  said that he remarried in June, but does not state what
        year and implies that quite some time elapsed between the suicide
        of his first wife and his second marriage.
               who was Chair of the Department of
                                                        According to
                                                                   in May
                                                                         .
        1987,             told 1  .      that he was         to-harry the
                                                                    - -2,
        same araduate student he had phoned in             When
        asked        if he was "rushing thingsggafter his first w1re.s
        suicide,       responded that he had already married the graduate
        student in a civil ceremony and that the wedding in         would
        be a religious ceremony.
               These misrepresentations and omissions are further evidence
        that          ' :'s communications,cannot be trusted to be honest
    ..        and support our conclusion that the forged letters are part of a
         .I   pattern of distortion by
I

              Conclusions
                   NSF cannot properly function if individuals are allowed to
              create fraudulent letters that falsely appear to represent
              official NSF business. NSF letters are routinely Sent concerning
              proposals for grants and awards for funding.        In addition,
              letters are sent concerning monetary obligations, which are due
              or payable to the Foundation or to third parties. ~bviously,it
              is important that only authorized employees conducting authorized
              business issue these letters.
                   Because NSF only funds grants for research after each
              proposal has undergone rigorous review by scientific peers, NSF-
              funded research has necessarily achieved a high degree of
              prestige in the scientific community. Even with NSFts rigorous
              review process, awards are necessarily based upon representations
              made in applicant's proposals. The integrity of a grant proposal
              must be of the highest order if the award process is to work.
                   Accordingly, for reasons of fundamental financial control,
              public accountability, and stature within the scientific
              community, it is imperative that no individual be allowed to
              represent that he or she is an NSF employee or falsely use NSF
              letterhead, no matter the purpose or intention. Aside from the
              legal violations, NSF cannot allow its reputation and the
              integrity of its programs to be compromised by such behavior.
              The action by the University is inadequate to protect the
              Foundation from future infractions by            . Because
                     has admitted that he forged two letters fraudulently
              representing an NSF official, and because he has displayed a
              pattern of misrepresenting the facts and circumstances        -
              precipitating his actions, we recommend that
              voluntarily exclude himself from applying for an NSF grant until
              the beginning of the next fiscal year (October 1, 1991). If ,
                    agrees to such voluntary exclusion, we will recommend that
              NSF take no further action in this matter.
                                                     December 28, 1990
                                                                                                             -
                                                                                                   P a g e 1 at 4
                                             Department of


                Program Director
                                             ,
                National science' Foundation
                1800 G Street, N.W.
                Washington, D. C. 20550
                                                                                    February 25, 1990
                Dear

                         I a m writing this letter, w i t h considerable anguish and deep apology. In
                  reference to your 16th February letter to - - -                             concerning two letters
                  whlch 1 gave to her and which I represented , falsely, a s having been sent by
                                                                                               '




                  you to me. A t the v e r y least, I owe you a n apology and some explanation, b y
                  way of reasons and in no manner by way of excuses (for there simply are
                  none), for having knowingly engaged i n a n act of straightforward dishonesty in
                  writing t w o letters which I then represented as coming from you [that ifit they
                  w e r e forged] and i n which I misrepresented certain of the facts of the case of
                  h e r (by w a y of me) submission of a research proposal to the National Science
                  Foundation [that is, I lied]. What I w i s h to present t o you a r e the real facts of
                  t h e case and the reasons f o r the d.eceit. I m u s t repeat, however, that these
                  reasons In no way constitute a n excuse of a n y kind. legitimate or otherwise, f o r
                  m y quite unpardonable behavior. I have never done anything of this kind before
z   .
                  in rny Ilfe, and I trust. that I shall never do so again. I have discussod t h e
.       ..I
                  m a t t e r a t 'length w i t h 1ny senior- departmental colleagues and, within a f e w
                  days, w7ill do so w l t h r-epresentatives of the university administration. VJhatcver
                  penalties rnay be itnpcrssd upon m e I accept as fully j u s t i f j ~ d under the
                  c.lr'cumstances, but m y apology to you in no way relates to that mattor-. I have
                  hctrayed the trust, until n o w well deserved, of friends, colleagues, a n d farnily.
                  professionally and personally, but I have also betrayed a n implicit trust that vou.
                  and 1 must have a s more distant professional colleagues; and it is the latter that
                  is a matter of concern and to be acknowledged directly in thls letter A l l I w o u l d
                  a s k oi yclu is that                . s f u t u r e submissions of r e s e a r c h prciposajs t o thr-
                     -...
                  ~t uL,ilr,ai  Sclence Foundatior. t.e :r. no w a y complicated by w h a t I haq.fcdonr. ~ r :
                  a l l v wav wnalsoever. You m a y s h o w this letter, a t your porsor'lai d l s c r ' ~ ; ~ i : ~: :.. .
                  whoinever you believe should be privy to it. . -
                         In J a n u a r y of 1989, I roccivcd from                   ,,   i p l l l ~ ~f.c!:;rptay..
                                                                                                        r            la:. !)'I;--
                . ciialrrnnri In thc Dcpartn~cnt(:ti                            the
              ..-         , s National Science Fc~uridatlon research proposal froin                                           ..
                                                                                                                    ; . ,. --,.I.. ---.

               . r.onduc.tlng ilrld research ln                   a t the time, ty b& suhrnittsd f o r ~ ? i n l I ~ ~!:iC
                                                                                                                      ?:I:'

                  a s her supervisor- a n d the chair of h e r doctoral comrnittos. In e a r l y Febr'uar;',
                  prepared my parts of the proposal. Although I have been involvod In such
                  submissions previously and should have understood the procedure, I dld not
                  submit the research proposal to the Office of Graduate Studies and Res2arch at
                  the                                                      as required, but simply mailed thc-
                  packet to the National Science Foundation and utterly forgot about it. 1 also made
                  nothlng of the fact, which I should have recognized from previous exyerlencc
                  With the National Science Foundation, that I received no card acknowledging
                  receipt of the packet. I simply assumed that I had done my part, that all was
                  Well, and that the results of the application would be communicated, sooner or
                  later, to                'Z with some kind of copy to me. I did not monltor the progress
    --   -          -                                          -           "   .       -
                                                                                       * - - -
           of t h e research proposal in a n y w a y . Many months later, In b e p r e r n ~ e r , t i i t :
           c h a i r ' s secretary showed me a letter f r o m ,                       still in t h e field, expressing
           concern over tho fact t h a t s h e had h e a r d nothing about her National Science
           Foundation proposal. With t h a t s e c r e t a r y , I w e n t over w h a t I had done by w a y
I          of submitting the proposal, and s h e immediately pointed out to me t h a t I had
           submitted it improperly by submitting i t directly in the m a n n e r t h a t I had, That
           s a m e secretary also       -
                                              gave m e the n a m e of a contact person             --    mentioned, I
           believe, in                        s note and a w o m a n associated in some w a y w i t h the
           National Science Foundation a t a n earlier time and assumed to be either at the
                                                or -                   - - ---- -.    (my scribbled note on her
           n a m e and institutional affiliation I no longer have) -- whom I immediately
           attempted to call only to find t h a t she w a s no longer a t that institution. I did not
           p u r s u e getting in touch w i t h t h a t person f u r t h e r . Then, shortly thereafter and
           a f t e r checking my own records, I called you directly about the m a t t e r . At the
           time, m y m e m o r y is t h a t you told m e : (a) that there was no record of the
           proposal having been received a t the National Science Foundation; (b) that, if the
           Proposal had been received, I should h a v e received a card of acknowledgement;
           (c) that, under t h e clrcumstances of t h e missing administrative signatures, the
           proposal would certainly have been returned to me promptly for proper
          completlon If it h a d been received; and (d) that you would contact m e if f u r t h e r
           checking revealed a n y n e w information. I also asked you w h a t you imagined
           might have happened. As I recall, you replied t h a t only v e r y r a r e l y was there
          any external o r internal loss of documents mailed t o the National Science
           Foundation. F u r t h e r checking on m y p a r t revealed no record whatsoever of
           receipt of the proposal in question              --           either in your office o r in t h e National
           Science Foundation mailroom. You also noted, following my i n q u i r y on the
           m a t t e r , t h a t any new submission of t h a t proposal would be treated as any n e w
           submission.
                  At t h a t point, I panicked for- r e a s o r ~ sto be noted below. I w r o t e to                .,   <
           in               In e a r l y and mid October, hoping to resubmit the proposal as quickly
           as possible but seeking her advice on the matter, only to h e a r shortly thereafter
           that she w a s r e t u r n i n g to                           . In the first letter to                       1:
           represented the fact of the proposal belng missing a n d simply stated that 1-was
           p u r s u i n g the m a t t e r . In the stcc~ndletter, howovc-r, I claimed that the National
           Scic-ncc Foundation mailroonl did indeed have a receipt of something having been
           sqnt by me a t about the tinle in question, and this clalm w a s entirely u n t r u e
           lJpeal              . - -.'s t-etut-n fr-on]              (arid although she returned in December of
           '
             - - , I :.=-A* ficr f i r e ; lr. January of 19?0), she asked me about w h a t htc
                 1,3C,




           tsappericti l,'lzhble slmplv to tell her w i t h a n apoiogv lor w h a t I acruai!v h a d
           d m c , I then reviewed w h a t h a d happened a n d added the fiction o! t h e rr?hi!room
           receipt Shortly thereafter. she asked to see the documents on the matter in m)'
           r,o:.scse.lc~;-, I d e i a y ~ dr~spc~rldinc,      for- a week or so; hut w h e n she pressed rris OIi
           :!ic nlattcr-,        1  manufactur.cd      t h e   letters which 1 rcprcacnted a s halting Gcen .-.cr::
         'hv you The a f t e r m a t h of havine dene t h a t you well know.
                  In all of t h i s matter-, I could simply have told                            - the t r u t h , wftls
          apology for m y mistake in submitting h e r proposal and f o r my not having
          monltorod I t s progress a t the National Science Foundation. Although I did tell h e r
           those actual facts, 1 added falsehoods to m y claim in the f o r m of maintaining
          t h a t the National Science Foundation did indeed have a record of a document
          recelved and t h e n lost a n d then later w r o t e the t w o letters, which I falsely
          represented as having been w r i t t e n by you, in support of t h a t claim. I should
          note t h a t I have k n o w n                 ,   ; _ f o r a number of years, that w e have had (by
          my reckoning) a v e r y good relationship in which, among other things, 1
          supported h e r request f o r leave of absence on personal grounds, and that 1 had
          every reason to believe          --        glven h e r acquaintance w i t h my personal dlificulties
                         -       -
                                                            "
       in the recent ~ a s andt     mine with h e r s --        that she would have understood w h a t
       was certainly irresponsible but not dishonest. Nonetheless, in part because of
       sheer guilt about not having done w h a t I should have done and in p a r t because of
       a serious inability to cope w i t h personal conflict or confrontation a t the time as
I      well as to deal with the guilt interpersonally, I tried t o cover the matter, t o
       absolve myself of responsibility of a n y kind in her eyes, and I lied.
             As I have noted above, there a r e no excuses whatsoever f o r having behaved
       in this manner. There are reasons, however, w h y I behaved so dishonorably
       and so out of character, and these reasons a r e given here not to seek your
       forgiveness but only so that you m a y understand something of the nature of
       w h y I responded to                in the w a y t h a t I unquestionably did. In November
       Of 1986, m y then wife of seventeen years, after more than a decade of
       ever-mounting and severe illnesses, committed suicide. I had also lost my father
       to h e a r t failure in 1982 and my sister t o leukemia in 1984. But the sudden,
       unexpected, Bnd violent death of my wife and the considerable t r a u m a of h e r
       long, serfous illnesses left me in r a t h e r bad shape in a number of w a y s --
      among them, a v e r y considerable guilt about w h a t I might have done to lessen
       her desperation or to foresee ominous signs of w h a t w a s to happen            --   f o r I had
       been the sole person beyond h e r doctors responsible for her wellbeing. In the
       following months, I continued m y duties (light in the immediate aftermath of
       her suicide) and sought psychotherapy f r o m a n expert on dealing w i t h depression
      and loss of a spouse a t the 1 ,                                       - -    During that period
      Of time, I also became involved w i t h someone else, and w e eventually decided to
       marry. B y June, my therapist a n d I felt t h a t all w a s in reasonable control, and
       that much w a s looking brighter. That Summer I travelled to                      to m a r r y my
      present wife. Upon our return, however, difficulties began to emerge                    --   indeed
      w h e n w e first re-entered the house in which my first wife's suicide had
      occurred a n d ' w h e n I then assumed t h a t whatever reprieve from certain
      t-esponsibllitics I had been given in the world w a s over. With various bright
      moments along the way ( n o t a b l ~the b i r t h of a child), I became more and more
      depressed, nightmares about t h o s u ~ c i d ebegan t o recur, and m y ability to deal
      both w i t h commitments and w i t h stress of a n y kind lessened. However, in each
      instance T attributed those growing problems t o the immediacies of real world
      demands and did not recognize (as did my wife) that something more
       fundamental w a s at issue. In March of 1989 1 began to enter a slowly growing
      depression of increasinc maa_n~tude          and scope which, when I recognized that this
      w a s no longer attributable t o ~ ~ r ~ r n e d i events
                                                              ate     after a number of months, led
       r e t o resume pc-;c?,*::?,:r---
                                      C   L   - ~ * : f k!!;c ezmc therapist who had helped me
                                              ~   ~


      earher lviucri 6; :La: :k.crcpy involved anti-depressants. In mid Fall, wnen t n u
      leaden effects of the depressi~nhad lifted, the frenzy of diffuse guilt and ~nabjlity
      t o deal w i t h stress (espec~nllyIn t h e fcrrm of admitting failure in any w a y a n d
      conirontine f a ~ l u r c -/y.itfi n:~ittficr person) b e ~ a n to increase.         Indeed, the
    - diff~cultiesh s v c wrsnifcated t f i ~ ~ s c : ; ~i ne sother v:ays, a1though none comparablc
    ' t o the present issue In the a f t e r m a t h of the recent events about which you
       know, the therapy has changed course to deal w i t h the other aspects of a v e r y
      serious problem, but both m y therapist and I are confident that it is aoluble a n d
       that w e shall indeed solve I t . Nonetheless, all of this has brought about a set of
      acts unlike anything 1 have done previously, a betrayal of a great many people
      whose tr115t I have valued (you among them), and a kind and degree of deep
      shame that I have never before experienced. None of the above changes the fact
       t h a t I did what I did and am responsible and accountable f o r that. 1 only w a n t
      you to realize that I did not do w h a t I did out of maliciousness toward                       ,e*
      you, or anyone, that I shall do whatever I have to do to be again the honest and
       responsible person I once was, and that I am very, very sorry.
             Because of their Immediate and special involvement in this matter, I hope
    t h a t you will understand t h a t I am giving copies of this letter t o .,        wno
    was most directly effected by w h a t I did,                                Wf t h whom
    you spoke,                                , who is department chair and to whom fell
    the
    - burden         of having to deal w i t h w h a t I have done, and .'                  ,
i           , w h o is the founder of this Department and w h o is helping me to sort out
    what course of therapy might be best in t h e long r u n . . I also shall give them
    permisston to show thls letter to anyone w h o needs f o ~ m a l l yto see it at thelr
    discretion -- the s a m e permission that 1 have given you. If you have a n y
    questions about a n y part of thls m a t t e r , I shall of course do my best to provide
    whatever information I can. There 1s little more t h a t I could s a y a t this point,
    and I shall close this letter.

                                             Sincerely and w i t h apology,




                                             Associa t.e Professor of
                                            NATIONAL SCIENCE FOlfNDATION
                                      1000 G S(nEF1. N.W.     WAS(INGlON.O.C.XUO

        i:.   '




                                                            October 2,       1489
                          -
                                                 -   -
 Department of            r       .
 1: :                                 . .    -                           .     R E F : BNS/INQ-9/29/89
                    - .
                              i       .


 Dear
 ~ n r 'e g e r d    t o o u r t e l e p h o n e c o n v e r s a t i o n o f September 2 9 t h . I h a v e begun
 a n inquiry . i n t o t h e s t a t u s o f t h e N a t i o n a l S c i e n c e F o u n d a t i o n r e s e a r c h
 p r o p o s a l . s u b m i t t e d by you o n b e h a l f o f
                                                                                 1
                                                                                    :. A c c o r d i n g t o y o u r
 i n f o r m a t i o n , t h e p r o p o s a l v a s e n t i t l e d '"          -   -
                    ' " a n d was m a i l e d o n F e b r u a r y 13, 1989. A p r e l i m i n a r y c h e c k of
  out c o m p u t e r r e c o r d s d o e s n o t i n d i c a t e r e c e i p t o f t h i s a p p l i c a t i o n ; a n d
   from y o u r d e s c r i p t i o n o f w h a t w a s e n c l o s e d , we s h o u l d h a v e c o n t a c t e d y o u
  c o n c e r n i n g t h e p r o v i s i o n of c e r t a i n a d m i n i s t r a t i v e a p p r o v a l s n o t , by your '
  reckoning, enclosed with the o r i g i n a l application submitted. Furthermore,
  as y o u p r o p e r l y n o t e d , w e s h o u l d h a v e s e n t t o y o u a r e c e i p t a c k n o v l e d g i n g
  r e c e i p t o f t h e documents. T h e r e f o r e , as I i n d i c a t e d i n o u r c o n v e r s a t i o n ,
  I am continuing t h e search and also turning the relevant information over
   t o t h e d e p a r t m e n t w h i c h h a n d l e s m a t t e r s o f m a i l r e c e i p t and i n t e r - o f f i c e
   routing,
              A S I n o t e d l a s t week, e j t h e r ve n e v e r d i d r e c e i v e t h e m a i l j n g or i t
- ) b e c a n e l o s t i n t h e c o n s i d e r a b l e b u r e a u c r a c y here. I f t h e later i s t h e c a s e
   h o w e v e r , I t r u s t t h a t t h e r e w i l l a t l e a s t b e some r e c o r d o f r e c e i p t o f the
  d o c u m e n t s . I n e i t h e r case, o n c e t h i s m y s t e r y i s r e s o l v e d , I c a n o n l y
  suggest a resubmissfon o f the application.
              I am i n d e e d s o r r y a b o u t w h a t e v e r r o l e t h e NSF m a y h a v e p l a y e d i n t h i s
  c o n f u s i o n , a n d I s h a l l k e e p i n c o n t a c t w i t h t h e c a s e a s l o n g as i t s e e m s
   r e a s o n a b l e t o d o so..-

                                                            Sincerely yours,




                                                            P r o g r a m vireccor,
                                                            email:
                                                        -.                                           .
                                  NATIONAL SCIENCE FOUNDATION
                              1800 G SIRIFI, N. W. WAf(llNG1ON.O.C.X)W



                                                 O c t o b e r 18, 1 9 8 9
 -
                                                                     .   .
 Department of
                                                                             REF:   BNS/INQ/EBACG/FJPP
                         -

                                                             .   .
 Dear

  I n ' i e g a r d t o o u r s e c o n d and t h i r d t e l e p h o n e c o n v e r s a t i o n s o f O c t o b e r
  1 0 t h a n d 1 6 t h . a n d y o u r o t h e r c o n v e r s a t i o n s w i t h mailroom p e r s o n n e l ,
  f t does - a p p e a r t o b e t h e c a s e t h a t t h e N a t i o n a l S c i e n c e F o u n d a t i o n
' d i d i n d e e d r e c e i v e f r o m y o u a p a c k e t on F e b r u a r y 2 1 , 1989. T h e r e i s
  no r e c o r d , h o w e v e r , beyond t h e " l o g hook" i n w h i c h a r e r e c o r d e d
  i n j t i a l r e c e j p t of such i t e m s , f o r a l l o t h e r c a t a l o g i n g and formal
  r e s p o n s e s or n o t i f i c a t i o n s o c c u r a f t e r such packages have been r o u t e d
  t o t h e a p p r o p r i a t e NSF o f f i c e . I f y o u s e n t n o t h i n g e l s e t o u s a t a b o u t
  t h a t time, I c a n o n l y s u r m i s e t h a t t h e p a c k e t c o n t a i n e d t h e m i s s i n g
 application,
            Unfortunately, t h e r e is r e a l l y n o t h i n g f u r t h e r t h a t w e c a n d o
 a t t h i s t i m e , n o r a r e w e e n t j t l e d t o g r a n t a s p e c i a l s c h e d u l e of
 e v a l u a t i o n under t h e s e circumstances. Nonetheless, I a m very s o r r y
 i n d e e d t h a t i t may w e l l h a v e b e e n t h e case t h a t w e a r e r e s p o n s i b l e
 f o r t h i s l o s s . We r e c e i v e a v e r y l a r g e n u m b e r o f d o c u m e n t s o f a l l k i n d s
 i n any g i v e n y e a r , D e s p i t e o u r b e s t e f f o r t s , e few d o become l o s t i n
    j e mazes o f o u r i n t e r n a l r o u t i n g s y s t e m . 1 d o h o p e , n o n e t h e l e s s , t h a t
 ~ - 0 uw i l l e n c o u r a g e                 t o r e s u b m i t h e r a p p l i c a t i o n , a l t h o u g h s h e should
 n o t s u g g e s t t h a t s p e c i a l c o n s j d e r a t i o n might be given. Indeed, w e
 C a n n o t be a b s o l u t e l y s u r e t h a t t h e r e c e i v e d d o c u m e n t w a s h e r a p p l i c a -
 t i o n s i n c e o u r r e c o r d s d o h o w t h a t y o u s u b m i t t e d a n NSF p r o p o s a l
 e v a l u a t i o n i n J a n u a r y o f . 1989.
                                                            Sincerely yours,




                                                         Program Director,             -                               - a



                                                         email
                                                                                      f i b C Q L ~ ~ U l c . 4n
                                                                                                               I ~
                                                                                                                 j

                                                                                      Page 1 of 2
                                              NATIONAL   SCIENCE FOUNDATION
                                                     1000 G STREET. N.VJ.
                                                   WASHINGTON. D.C. 23550




                                                     February 16, 1990




         Dear

         I have examined the two photocopied letters you sent me that seem
         to be, in appearance, documents sent from this office, initialed
         by me, to                           , in October 1989. In fact
         these two letters were not sent from this office. My reasons for
         saying this are:
         -      The signature is not mine and I do not remember ever writing
                either letter.
         -      We have no copy of such lettersin our files, although we
                normally keep file copies of correspondence.
         -
:.   j
                The format of the letter (spacing, "REF" block, typestyle)
                is not consistent with the format used in this office.
         -      The statement in the letter dated "October 18, 1989" that a
                packet from          ! was logged'in the NSF mailroorn is
                false. No such packet was recorded as being received at
                that time.
         -      The letterhead is not the style that has been used in this
                office for these sorts of letters, but is a style that is
                generated by anothor office for a different sort of letter.
         -      I
                    :....   *st!: :c-t:crr.
                            & ,
                                              t h e t ~ : < ti.s
                                                              : not   line? yp !.rifh the
                letterhead, suggesting that the text was c l u r n s i l y -
                superimposed over a letterhead that originally had different
                text.

         I z c q r c t this difficult situation snd hope that this does n Q t
         deflect your attention from your study of
                                             The understanding of
                                   is important, as part of our basic
                                                           P a g e 2 of 2




understanding of                          , and also for the
applied task of designing policies and institutions that allow
each individual to achieve his or her potential. I wish you the
best of luck with your dissertation.




                                            I).-qr-
                                                -      "i~ector
                                                 , -
                                                -.       - - .




cc:                                                    - - - --
                                  Chair, .
                                       Chancellor,
             - .- --   --   --      , Director, Division of
                                 , NSF
                                 , Inspector General, NSF
